No. ______

In the
Supreme Court of the United States
PATRICIA NELSON, Next friend of N.K., a minor,
Petitioner
v.
ESTEBAN RIVERA, Respondent.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

CHRISTOPHER J. TRAINOR
Counsel of Record
AMY J. DER OUIN
Christopher Trainor & Associates
9750 Highland Rd.
White Lake, MI 48386
(248) 886-8650
Counsel for Petitioner

QUESTION PRESENTED
Whether the Sixth Circuit erred when it conspicuously
disregarded the standard set forth in Tolan v. Cotton, 572
U.S. 650 (2014) by granting qualified immunity based upon
the defendant officer’s testimony while failing to consider
not only minor N.K.’s testimony but also eyewitnesses’
testimony and dash-camera video which support minor
N.K.’s position that he was compliant and empty-handed
at the time that he was shot.

i

TABLE OF CONTENTS
QUESTION PRESENTED………….………………..….i
TABLE OF AUTHORITIES…………………………...iv
OPINIONS BELOW………………………………..…..viiii
JURISDICTION…………………………………………vivii
RELEVANT STATUTORY PROVISION……….…...viii
STATEMENT……………………………..……………….1
A. Factual Background……….1
B. Proceedings Below…………2
REASON FOR GRANTING THE WRIT………………7
CONCLUSION……………………………………..……24

ii

APPENDIX
A. Opinion of the United States Court of Appeals for the
Sixth Circuit (February 4, 2020)………………………..…A1
B. Opinion of the Western District of Michigan
(February 21, 2018)…………………………………….….A20
C. Order of the United States Court of Appeals for the
Sixth Circuit Denying a Petition for Rehearing
(April 1, 2020) …………………….……………….…….…A32

iii

TABLE OF AUTHORITIES
Cases
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986)……………………………..………8, 9, 10
Calloway v. Lokey, 948 F.3d 194 (4th Cir. 2020)….…18, 19
Carroll v. Carman, 574 U.S. 13 (2014)…………………….16
Celotex Corp. v. Catrett, 477 U.S. 317 (1986)….………8, 10
Day v. City of Indianapolis,
380 F. Supp. 3d 812 (S.D. Ind. 2019)………….………16, 17
Day v. Wooten, 947 F.3d 453 (7th Cir. 2020)……………..17
Kong v. City of Burnsville,
960 F.3d 985 (8th Cir. 2020)……………………….20, 21, 22
Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574 (1986)……….……………………………8, 9, 10
Mullinex v. Luna, 136 S. Ct. 305 (2015)………….………16
Salazar-Limon v. City of Houston,
137 S. Ct. 1277 (2017)……………………………………15, 16
Salazar-Limon v. City of Houston,
826 F.3d 272 (5th Cir. 2016)………………..…………..14, 15
Sheets v. Mullins, 287 F.3d 581 (6th Cir. 2002)………...…4

iv

Sova v. City of Mt. Pleasant,
142 F.3d 898 (6th Cir. 1998)…………………………...……..3
Stanton v. Sims, 571 U.S. 3 (2013)………….……………..16
Taylor v. Barkes, 135 S. Ct. 2042 (2015)……….………….16
Tolan v. Cotton, 572 U.S. 650 (2014)………….……..passim
White v. Pauly, 137 S. Ct. 548 (2017)…………….………..16
Statutes
28 U.S.C. 1254(1)……………………………………..………vii
42 U.S.C. § 1983…………………………………….…….viii, 2
Other Authorities
Ilana Haramati, Procedural History: The Development of
Summary Judgment as Rule 56,
5 NYU J.L & LIBERTY 173 (2010)…….……………………7, 8
Joe Cecil & George Cort, Memorandum to Hon. Michael
Baylson, Estimates of Summary Judgment Activity in
Fiscal Year 2006 (June 15, 2007),
[https://perma.cc/DW66-3XRK]……………………………..12
Jonathan Remy Nash, Unearthing Summary Judgment's
Concealed Standard of Review,
50 U.C. DAVIS L. REV. 87 (2016)……………..……………..12

v

Kevin M. Clermont and Theodore Eisenberg, Empirical
and Experimental Methods of Plaintiphobia in the
Appellate Courts: Civil Rights Really Do Differ from
Negotiable Instruments,
2002 U. ILL. L. REV. 947, 971 (2002)………………………12
Suja A. Thomas, Access to Justice and the Legal
Profession in an Era of Contracting Civil Liability:
Reforming the Summary Judgment Problem The
Consensus Requirement,
86 FORDHAM L. REV. 2241 (2018)…………………………8, 9
Suja A. Thomas, 86 FORDHAM L. REV. at 2243; Suja A.
Thomas, The Fallacy of Dispositive Procedure,
50 B.C. L. REV . 759 (2009)…………………………………….9

vi

PETITION FOR A WRIT OF CERTIORARI
Petitioner Patricia Nelson, as Next Friend of N.K., a
minor at the time of the subject incident, respectfully
petitions for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Sixth Circuit in
this case.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Sixth Circuit as to the denial for rehearing is
available at Nelson v. City of Battle Creek, No. 18-1282,
2020 U.S. App. LEXIS 10317 (6th Cir. Apr. 1, 2020). The
United States Court of Appeals Sixth Circuit’s prior
opinion, which reversed the denial of qualified immunity to
Respondent Esteban Rivera is reported at Nelson v. City of
Battle Creek, 802 Fed. App’x 983 (6th Cir. 2020). The
district court’s decision denying the motion for summary
judgment as to qualified immunity is reported at Nelson v.
City of Battle Creek, No. 1:16-cv-456, 2018 U.S. Dist. LEXIS
27780 (W.D. Mich. Feb. 21, 2018).
JURISDICTION
The judgment of the United States Court of Appeals
for the Sixth Circuit was filed on February 4, 2020.
Petitioner’s Petition for Rehearing was denied by the
United States Court of Appeals for the Sixth Circuit on
April 1, 2020. This Court extended time to file this Petition
to August 29, 2020 based upon its Order dated March 19,
2020 in light of public health concerns relating to COVID19. This Court has jurisdiction pursuant to 28 U.S.C.
1254(1).

vii

RELEVANT STATUTORY PROVISION
42 U.S.C. § 1983 reads, in pertinent part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United
States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at
law, suit in equity, or other proper proceeding for
redress….

viii

STATEMENT
A.

Factual Background

On November 16, 2013, fourteen-year-old minor
N.K. and three of his friends were playing the familiar
childhood game of cops and robbers in his neighborhood.
(A3, A22). The game involved the girls laughing and
running from minor N.K. as he jokingly chased them with
an airsoft BB gun (A3). The game subsequently ended
when the girls, needing to use the restroom, went into the
local party store while minor N.K. remained outside. (A3,
A22). At this time, the airsoft BB gun was entirely
concealed within minor N.K.’s waistband. (A3).
When respondent Rivera arrived on the scene
without activating his lights or siren, minor N.K. was
initially crouched behind a sign in front of the store. (A3,
A22). Minor N.K. began to approach his friends when
respondent Rivera pulled in, parked his car at an angle,
and shouted “let me see your hands!” (A3, A22). Minor
N.K. removed the airsoft BB gun from his waistband,
kicked it to the side, and was raising his hands in
compliance with respondent Rivera’s order when
respondent Rivera shot minor N.K. in his right shoulder.
(A3, A16, A18, A22, A27, A29). This is supported by minor
N.K.’s own testimony in which he testified that at the time
that he was shot, he had already visibly disposed of the BB
gun and was putting his hands up. (A16). Moreover, one of
the witnesses, minor S.C., testified “I see in the corner of
my eye [minor N.K.] puts his hands up halfway and then
the cop shot him.” (A16). Likewise, another witness, minor
S.W., testified that minor N.K. was shot after he had

1

already dropped the gun and moved his shoulder a little
bit. (A16).
In addition to the witnesses’ testimony, the video
evidence supports that minor N.K. was visibly unarmed at
the time he was shot by respondent Rivera. (A3, A16, A19).
As can be seen in the video, the palm of minor N.K.’s right
hand is empty immediately before minor N.K. is shot by
respondent Rivera. (A16, A19). Moreover, both minor N.K.
and respondent Rivera testified that when minor N.K.
discarded the BB gun, he used his right hand. (A16).
Therefore, the video does not contradict minor N.K.’s
recitation of the facts but rather supports that he was
unarmed and compliant at the time respondent Rivera
fired the shot that hit minor N.K. in the right shoulder.
(A16, A19).
B.

Proceedings Below

Petitioner Patricia Nelson (“Ms. Nelson”) filed the
instant 42 U.S.C. § 1983 case on behalf of her minor son,
N.K., where she alleged, in relevant part, that respondent
Rivera’s actions violated minor N.K.’s right to be free from
excessive use of force when minor N.K. was shot in his right
shoulder despite his compliance with respondent Rivera’s
order to put his hands in up as well as discarding the BB
gun. (A4, A21). Respondent Rivera filed a motion for
summary judgment where he argued that Ms. Nelson’s
Fourth Amendment claim should be dismissed based upon
qualified immunity. (A4, A21).

2

1.
On February 21, 2018, the United States
District Court for the Western District of Michigan denied
qualified immunity to respondent Rivera and held that Ms.
Nelson raised a genuine issue of material fact regarding
whether minor N.K. posed a threat at the time respondent
Rivera shot him. (A32). The district court noted that the
parties characterize the facts differently: respondent
Rivera argued that minor N.K. was “brandishing” a gun
and disobeyed a police order, while Ms. Nelson argued that
minor N.K. had already disposed of the BB gun when he
was shot and that minor N.K. was complying with
respondent Rivera’s order which was supported by the
witnesses’ testimony. (A25-A26). The district court opined
that the facts likely supported a conclusion in between the
differing versions of the facts, but it further recognized that
the factual disputes must be viewed in the light most
favorable to the plaintiff on a summary judgment motion.
(A27, A31-A32). Furthermore, while respondent Rivera
argued that the video evidence eliminated any issue of fact,
the district court found that the video evidence was not
conclusive as to the key disputed issues. (A31). Therefore,
pursuant to Sova v. City of Mt. Pleasant, 142 F.3d 898 (6th
Cir. 1998), the significant factual disputes precluded a
grant of summary judgment. (A31-A32). Specifically, the
district court correctly held, “the question of qualified
immunity turns upon which version of the facts one
accepts, precluding a determination of liability by the
Court.” (A32).

3

2.
On February 4, 2020, the United States Court
of Appeals for the Sixth Circuit issued an Opinion which
reversed the United States District Court for the Western
District of Michigan’s denial of summary judgment and
held that respondent Rivera was entitled to qualified
immunity. (A14). Specifically, the Sixth Circuit held that
a reasonable officer would not be aware that shooting
minor N.K. violated his clearly established constitutional
rights. (A13-A14). The Sixth Circuit noted that for the
purposes of the appeal, respondent Rivera conceded that at
the moment the bullet had hit minor N.K., minor N.K. had
thrown away his gun and begun to raise his hands. (A4).
The Sixth Circuit further cited Sheets v. Mullins, 287 F.3d
581, 585 (6th Cir. 2002) for the principle that “a defendant
seeking qualified immunity must be willing to concede to
the facts as alleged by the plaintiff and discuss only the
legal issues raised by the case.” (A5).
Despite acknowledging this well-established legal
principle, the Sixth Circuit nevertheless favored
respondent Rivera’s allegation that he had “decided” to
shoot before minor N.K. had disposed of the toy gun. (A10).
Specifically, the Sixth Circuit held that “[i]t was not
objectively unreasonable for Rivera to decide to shoot N.K.
as he saw minor N.K. grip and raise his gun, even if the
bullet ultimately struck minor N.K. after he had dropped
the gun.” (A9). Moreover, the majority Opinion made no
reference to the witnesses’ testimony, which supported
that minor N.K. was shot after N.K. had disposed of the BB
gun and he had already begun raising his hands, except to
dismiss this testimony as irrelevant. (A10). The Sixth
Circuit therefore did not take the evidence in the light most
favorable to Ms. Nelson and minor N.K., which supported
that respondent Rivera had not decided to shoot minor

4

N.K. until after he had disposed of the BB gun and was
raising his empty hands in the air. (A10).
Judge Karen Nelson Moore dissented, noting that
“the majority repeatedly accept[ed] Rivera’s framing of the
evidence over N.K.’s. More specifically, in its recitation of
facts, the majority state[d] that ‘[w]hile N.K. was [pulling
the gun out of his waistband and tossing it away], Rivera
fired his weapon at N.K.’” (A15). Judge Moore further
recognized that the majority Opinion accepted respondent
Rivera’s argument that he “decided” to shoot before minor
N.K. had begun raising his hands as opposed to accepting
the facts in the light most favorable to minor N.K.. (A15).
To the contrary, Judge Moore relied upon the parties’
deposition testimony in support of her opinion that there
existed a question of fact as to whether respondent Rivera
“shot [minor] N.K. while [minor] N.K. was throwing down
his gun and raising his hands or after [minor] N.K. had
taken those two actions.” (A16). Judge Moore further relied
upon the dashboard camera video, which did not contradict
minor N.K.’s testimony but instead showed minor N.K.’s
empty right hand “an instant after” respondent Rivera had
ordered minor N.K. to show respondent Rivera his hands.
(A16). Judge Moore therefore concluded that a reasonable
jury could accept either respondent Rivera’s narrative or
minor N.K.’s narrative, and so, for the purposes of the
appeal, the Sixth Circuit should have accepted minor
N.K.’s narrative as true. (A19). Therefore, “[t]his case
belongs in front of a jury.” (A19).

5

3.
On March 11, 2020, Ms. Nelson submitted her
Petition for Rehearing En Banc or, in the Alternative, for
Panel Rehearing where she argued the Opinion favoring
qualified immunity for respondent Rivera was erroneous
because of the following: (1) the Panel failed to take the
facts in the light most favorable to Ms. Nelson as it is
required to do based upon United States Supreme Court
and Sixth Circuit jurisprudence governing an interlocutory
appeal based upon qualified immunity; and (2) Panel
incorrectly applied Ms. Nelson burden of proof as to the
right being clearly established and mischaracterized the
actual clearly established right at issue in this case. On
April 1, 2020, the Sixth Circuit denied Ms. Nelson’s
Petition for Rehearing. (A34).

6

REASON FOR GRANTING THE WRIT
1. THE UNITED STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT ERRED IN ITS DECISION TO GRANT
QUALIFIED IMMUNITY TO RESPONDENT RIVERA BY
CONSPICUOUSLY
FAILING
TO
APPLY
LONGSTANDING PRECEDENT GOVERNING THE
SUMMARY JUDGMENT STANDARD THAT THE COURT
MUST ACCEPT THE FACTS IN THE LIGHT MOST
FAVORABLE TO THE NONMOVING PARTY WHEN IT
FAILED TO CONSIDER EVIDENCE IN FAVOR OF THE
DENIAL OF QUALIFIED IMMUNITY WHICH
INCLUDED, BUT IS NOT LIMITED TO, MINOR N.K’ S
TESTIMONY, WITNESSES’ TESTIMONY, AND VIDEO
EVIDENCE.
A. THE EVOLUTION
STANDARD

OF THE

SUMMARY JUDGMENT

Pursuant to Tolan v. Cotton, 572 U.S. 650 (2014),
when deciding a summary judgment motion premised upon
qualified immunity, a court must apply the Fed. R. Civ. P.
56 summary judgment standard and accept the facts in the
light most favorable to the nonmovant. Id. at 656-57.
Notably, all inferences must be drawn in the nonmovant’s
favor even where the court decides only the clearlyestablished prong of the qualified immunity standard. Id.
at 657.
Fed. R. Civ. P. 56 was first enacted in 1938 as part
of the Federal Rules of Civil Procedure. Ilana Haramati,
Procedural History: The Development of Summary
Judgment as Rule 56, 5 NYU J.L & LIBERTY 173, 174-75
(2010). The Federal Rules, including Fed. R. Civ. P. 56,
were implemented in response to an inefficient judicial

7

system in which complex procedural rules caused litigation
to be a lengthy and involved practice. Id. at 184-85. The
summary judgment rule specifically was intended to
decrease such delays, especially those used by corporate
defendants to burden poorer plaintiffs. Id. at 207. As such,
summary judgment was initially designed to be used in
favor of plaintiffs and only where no issue of fact existed.
Suja A. Thomas, Access to Justice and the Legal Profession
in an Era of Contracting Civil Liability: Reforming the
Summary Judgment Problem The Consensus Requirement,
86 FORDHAM L. REV . 2241, 2243 (2018). While what is
commonly referred to as “the trilogy” changed the way
summary judgment has since been utilized, it is important
to recognize the original intentions behind Fed. R. Civ. P.
56, specifically the fact that the rule was developed for the
benefit of plaintiffs.
However, the summary judgment standard did
change with the decision of three cases: Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574 (1986)
Anderson v. Liberty Lobby, Inc., 477 U.S. 242 (1986), and
Celotex Corp. v. Catrett, 477 U.S. 317 (1986). Matsushita,
the first case in the trilogy, involved an antitrust suit
between American television manufacturers and 21
Japanese television manufacturers in which the American
manufacturers alleged a predatory pricing scheme. Id. at
577. The Court ultimately held that the lower court erred
by relying on irrelevant evidence and failing to consider the
absence of a plausible motive to engage in predatory
pricing, and it remanded for consideration of these factors.
Id. at 583, 596. The Court warned that in antitrust law
specifically, the “range of permissible inferences from
ambiguous evidence” is limited. Id. at 588. Notably, Justice
White, joined by Justices Brennan, Blackmun, and

8

Stevens, wrote a dissent to the Matsushita majority where
he criticized the Opinion for (1) its “confusing and
inconsistent statements about the appropriate standard for
granting summary judgment”; (2) its “assumptions that
invade the factfinder’s province; and (3) the “nonexistent
errors” in a case which plainly supports that the
respondent raised genuine issues of material fact. Id. at
599.
The Anderson decision broadened the scope of the
stricter summary judgment standard beyond the realm of
antitrust. In Anderson, the plaintiff, a public official,
brought suit against the defendants for libel following the
publication of three articles. Anderson, 477 U.S. at 244-45.
The Court held that in order to survive summary
judgment, the plaintiff was required to set forth sufficient
evidence to overcome the clear and convincing evidence
standard which would be applied at trial. Id. at 254. In
response to the Anderson decision, Justice Brennan
dissented to criticize the summary judgment standard and
opined that the majority opinion “could surely be
understood as an invitation – if not an instruction – to trial
courts to assess and weigh evidence as much as a juror
would.” Anderson, 477 U.S. at 266; see also Suja A.
Thomas, 86 FORDHAM L. REV. at 2243; Suja A. Thomas, The
Fallacy of Dispositive Procedure, 50 B.C. L. REV. 759
(2009). As such, Justice Brennan expressed concern that
the courts would usurp the role of the jury and upend the
right of civil litigants to a jury trial. Id. at 267. Likewise,
Justice Rehnquist, joined by Justice Burger, authored a
separate dissent where he emphasized that credibility
determinations are the realm of the jury. Id. at 269.

9

Finally, in Celotex, a personal injury case involving
exposure to asbestos products, the defendant corporation
argued that the plaintiff failed to present any evidence that
he was exposed to the asbestos product. Celotex, 477 U.S.
at 320. The District of Columbia Circuit denied the
summary judgment motion based on the fact that the
defendant corporation did not present evidence or
affidavits to support its arguments. Id. at 321. The
Supreme Court reversed, holding that the plaintiff bore the
burden of proving that he had been exposed to the asbestos
product, and therefore, there could be no genuine issue of
material fact. Id. at 323. Justice Brennan, joined by
Justice Burger and Justice Blackmun, dissented from the
Celotex majority to criticize the confusing and inconsistent
standard that the opinion created. Id. at 329. Specifically,
Justice Brennan argued that the defendant corporation
ignored evidence in the record which supported the
plaintiff’s claim and that the defendant corporation failed
to attack the adequacy of this evidence. Id. at 336. In
Justice Brennan’s view, Rule 56 requires that the moving
party “affirmatively demonstrate that there is no evidence
in the record to support a judgment for the nonmoving
party” rather than placing the burden upon the plaintiff to
prove the he has a case. Id. at 332.
The dissents to the aforementioned trilogy
demonstrate the concerns that the lower courts would be
tasked with impermissibly weighing evidence, thus
invading the province of the jury. Id. at 329; Matsushita,
475 U.S. at 599; Anderson, 477 U.S. at 266. Moreover,
research supports that summary judgment has been
applied in ways that have strayed from the original
intention of leveling the playing field for plaintiffs and has
instead become a tool for the benefit of defendants.

10

Specifically, statistics show that the Courts of Appeals are
4.35 times more likely to reverse a denial of summary
judgment than the Courts of Appeals are to reverse the
district court’s grant of summary judgment. Jonathan
Remy Nash, Unearthing Summary Judgment's Concealed
Standard of Review, 50 U.C. DAVIS L. REV. 87, 127-29
(2016). Furthermore, these reversals support defendants in
civil rights cases. Kevin M. Clermont and Theodore
Eisenberg, Empirical and Experimental Methods of
Plaintiphobia in the Appellate Courts: Civil Rights Really
Do Differ from Negotiable Instruments, 2002 U. ILL. L. R EV.
947, 971 (2002). One study which compared civil rights
cases with negotiable instruments cases concluded that the
advantage to defendants in the appellate courts only
applied in civil rights cases. Id. In fact, one study of 28,748
summary judgment motions found that summary
judgment was granted in 70% of civil rights cases, meaning
that only 30% of cases survived summary judgment. Joe
Cecil & George Cort, Memorandum to Hon. Michael
Baylson, Estimates of Summary Judgment Activity in
Fiscal Year 2006 (June 15, 2007), [https://perma.cc/DW663XRK]. These statistics support that when courts ignore
the appropriate standard and instead “massage the facts”
and thus fail to take into account the reasonable inferences
in favor of the nonmoving party, the effects are significant
and can be devastating for nonmoving parties. Suja A.
Thomas, 86 FORDHAM L. REV . at 2252.

11

i.

Tolan v. Cotton: “The Facts must be
Taken in the Light Most Favorable to the
Nonmoving Party” is the Appropriate
Summary
Judgment
Standard
as
Applied to Qualified Immunity Cases

While the summary judgment standard has become
more difficult for plaintiffs to overcome, lower courts still
must take the facts in the light most favorable to the
nonmoving party. Tolan v. Cotton, 572 U.S. 650 (2014). In
Tolan, the defendant police officer incorrectly entered the
the vehicle’s license plate number and concluded that it
had been stolen. Id. at 651. After the plaintiff and his
cousin had parked the vehicle in front of his parents’ house,
the defendant officer ordered both occupants out of the
vehicle and onto the ground. Id. at 652. The driver’s
parents emerged from the house and explained that the car
was not stolen. Id. Subsequently, the defendant officer
grabbed the plaintiff’s mother’s arm and slammed her
against the garage door. Id. at 653. The defendant officer
testified to a different set of events where he merely
escorted the plaintiff’s mother to the garage. Id. The
plaintiff testified that he then rose to his knees while the
defendant officer testified that the plaintiff rose to his feet,
but the parties agree that the plaintiff yelled at the
defendant officer to get his hands off of his mother. Id.
Without any verbal warning, the defendant officer drew his
pistol and fired three shots at the plaintiff, resulting in a
collapsed lung and pierced liver. Id. at 654. The plaintiff
thereafter filed suit alleging excessive force in violation of
the Fourth Amendment. Id. The district court held that the
use of force was reasonable and therefore did not violate
the Fourth Amendment. Id. The Fifth Circuit affirmed over
a dissent, holding that even if the defendant officer’s

12

actions violated the Fourth Amendment, he did not violate
a clearly established right because a reasonable officer
could have believed that the plaintiff presented an
immediate threat to officer safety. Id. In support of its
conclusion, the Fifth Circuit relied upon the following facts:
(1) the front porch was dimly-lit; (2) the plaintiff’s mother
had refused orders to remain calm; and (3) the plaintiff’s
words had amounted to a verbal threat. Id. at 655. The
Fifth Circuit also relied upon the defendant’s allegation
that the plaintiff was “moving to intervene” in the
altercation between the defendant officer and the plaintiff’s
mother. Id.
The Court granted certiorari and vacated and
remanded the Fifth Circuit’s decision. Id. at 651. In its
opinion, the Court emphasized the importance of viewing
the evidence in the light most favorable to the nonmoving
party. Id. at 657. Even in deciding the “clearly established”
prong of the qualified immunity analysis, courts must
define the right “on the basis of the ‘specific context of the
case.’” Id. The Court looked to evidence in the record where
the plaintiff’s testimony contradicted the facts relied upon
by the Fifth Circuit. Id. at 658-59. The plaintiff testified
that the front porch was not dimly-lit; the plaintiff’s mother
testified that she remained calm the entire time; and the
plaintiff testified that he did not jump up to his feet but
rather only rose to his knees. Id. at 659. Therefore, the
Court held that the Fifth Circuit impermissibly failed to
acknowledge and credit the plaintiff’s evidence in his favor,
and the Court remanded with instructions to properly draw
factual inferences in the plaintiff’s favor. Id. at 660.
Justice Alito, joined by Justice Scalia, concurred in
the judgment only. Specifically, Justice Alito opined that

13

there was “no confusion in the courts of appeals about the
standard to be applied in ruling on a summary judgment
motion,” and the correct standard was used. Id. at 661.
However, Justice Alito conceded that genuine issues of
material fact precluded a grant of summary judgment. Id.
at 662. Moreover, the majority opinion explained that the
Court addressed this case because the Fifth Circuit’s
opinion “reflects a clear misapprehension of summary
judgment standards in light of our precedents.” Id. at 659.
B. THE LOWER COURTS HAVE FAILED TO CORRECTLY
APPLY THE SUMMARY JUDGMENT STANDARD IN
THE QUALIFIED IMMUNITY CONTEXT BY FAILING
TO VIEW THE EVIDENCE IN THE LIGHT MOST
FAVORABLE TO THE NONMOVING PARTY
The instant case is not the only case where the
appellate court has misapplied the summary judgment
standard in the qualified immunity context. In SalazarLimon v. City of Houston, 826 F.3d 272 (5th Cir. 2016), the
plaintiff was shot in the lower back during a traffic stop for
drunk driving, and the plaintiff subsequently brought suit
against the defendant police officer alleging excessive use
of force. Id. at 274-75. The district court granted summary
judgment based on qualified immunity, and the Fifth
Circuit affirmed. In its recitation of the facts, the Fifth
Circuit admitted that the parties disputed “certain details”
of what occurred during the traffic stop which lead to the
shooting. Id. at 275. Moreover, on appeal, the plaintiff
argued that the district court erred by finding (1) that the
highway was dimly lit; (2) that the defendant officer
warned the plaintiff prior to the shooting; (3) that the
plaintiff turned sharply towards the defendant officer; and
(4) that the plaintiff reached for his waistband. Id. at 278.

14

Despite these alleged factual errors, the Fifth Circuit found
that the plaintiff had failed to adequately dispute that the
plaintiff had reached for his waistband and held, therefore,
there was no question of fact that the defendant officer had
acted reasonably under the circumstances because the act
of reaching for the waistband could be understood as
reaching for a weapon. Id. at 278-79. The Fifth Circuit
ultimately held that the defendant officer was entitled to
qualified immunity because he did not violate the
plaintiff’s constitutional rights.
The plaintiff petitioned for a writ of certiorari, which
was denied by the Court. Salazar-Limon v. City of Houston,
137 S. Ct. 1277 (2017). A concurrence written by Justice
Alito and joined by Justice Thomas explained that the
Court does not generally grant a writ of certiorari to review
a factual question. Id. at 1278. Justice Alito further
reiterated the Court’s rule that the Court “may grant
review if the lower court conspicuously failed to apply a
governing legal rule,” but argued that Salazar-Limon did
not fall under that criteria. Id.
Conversely, Justice Sotomayor, joined by Justice
Ginsberg, dissented from the denial of certiorari. Id.
Justice Sotomayor opined that like Tolan, Salazar-Limon
presented a scenario “reflect[ing] a clear misapprehension
of summary judgment standards.” Id., quoting Tolan, 572
U.S. at 659. Justice Sotomayor further pointed out the
discrepancies in the parties’ recitation of the facts –
specifically, that the plaintiff alleged he was shot in the
back while walking away, but the defendant argued that
the plaintiff turned and appeared to reach for his
waistband. Id. at 1279. These different versions of the facts
therefore should have precluded a grant of summary

15

judgment. Id. at 1281. Moreover, while the plaintiff did not
make any statement about whether he reached for his
waistband, his testimony that he was shot immediately
while walking away could support a reasonable inference
that he was shot unjustifiably. Id. at 1282. Justice
Sotomayor further criticized the Court’s willingness to
“summarily reverse courts for wrongly denying officers the
protection of qualified immunity involving the use of force”
while choosing to ignore such errors when qualified
immunity is improperly granted. Id. at 1282-83.
Specifically, Justice Sotomayor cited White v. Pauly, 137 S.
Ct. 548 (2017); Mullinex v. Luna, 136 S. Ct. 305 (2015);
Taylor v. Barkes, 135 S. Ct. 2042 (2015); Carroll v. Carman,
574 U.S. 13 (2014); and Stanton v. Sims, 571 U.S. 3 (2013)
as examples of cases where the Court exercised its
authority to overturn denials of summary judgment in
qualified immunity cases. Id. at 1283. This raises a valid
point – in White, the Court even admonished the Tenth
Circuit for incorrectly applying the law in a “unique set of
facts and circumstances,” therefore acknowledging the
factual question which was integral to that case. White, 137
S. Ct. at 552.
Since Salazar-Limon, the lower courts have
repeatedly failed to take the facts in the light most
favorable to the nonmoving party. The district court’s
opinion, Day v. City of Indianapolis, 380 F. Supp. 3d 812
(S.D. Ind. 2019), has a noticeably different recitation of the
facts than the Seventh Circuit’s opinion. In Day, an
altercation occurred in which the plaintiff’s decedent, an
obese eighteen-year-old, and the defendant officer, who
believed he witnessed the plaintiff’s decedent pocketing a
watch at a store within a local mall, confronted the
plaintiff’s decedent. Id. at 817. The plaintiff’s decedent

16

ultimately returned the watch and began walking away.
Id. The defendant officer testified that the plaintiff’s
decedent pulled out a gun, pointed it at the defendant
officer, and then ran through the mall carrying the gun,
while a witness officer testified that she believed she saw
the handle of a gun sticking out of the plaintiff’s decedent’s
pocket, but that the plaintiff’s decedent never removed the
gun and just ran. Id. Ultimately, the plaintiff’s decedent
was caught, handcuffed with a single set of chain
handcuffs, and seated on the ground. Id. at 818. The
plaintiff’s decedent stated he was having trouble
breathing, and the defendant officer told him to take deep
breaths. Id. He was examined by medical personnel,
deemed to be fine, and returned to police custody. Id. at
819-20. However, soon thereafter, the plaintiff’s decedent
appeared unresponsive and at that point the defendant
officer added a second pair of handcuffs. Id. at 821. The
plaintiff’s decedent ultimately died, and the autopsy report
listed contributory causes as “[s]ustained respiratory
compromise due to hands cuffed behind the back, obesity,
underlying cardiomyopathy.” Id. The plaintiff brought suit
alleging unreasonable seizure and excessive force. Id. The
district court held that based on the factual disputes in the
record and taking the facts in the light most favorable to
the plaintiff, a reasonable jury could conclude that the
defendant officers’ actions constituted an unreasonable
seizure. Id. at 826.
The defendant officers appealed, and Seventh
Circuit’s opinion deviated from the proper summary
judgment standard that the facts must be taken in the light
most favorable to the plaintiff Day v. Wooten, 947 F.3d 453,
456 (7th Cir. 2020). Specifically, the Seventh Circuit opined
that an appellate court has the discretion to accept either

17

the district court’s recitation of facts or the plaintiff’s
version of the facts. Id. The Seventh Circuit further opined
that it had the discretion to examine additional evidence
from the record. Id. Whereas the district court reasoned
that the defendant officers’ actions in ensuring that the
plaintiff’s decedent did not roll onto his back supported an
inference that the officers were aware of the risk of
asphyxiation, the Seventh Circuit opined that the record
contained no evidence to support that the officers were
aware that the handcuffs were causing the breathing
difficulties. Id. at 462; Day, 380 F. Supp. at 828. The
district court further identified evidence supporting that
the plaintiff’s decedent was unable to stand; his lips were
pale; he was visibly overweight, and the defendant officer
testified that the plaintiff’s decedent was on the verge of
hyperventilating. Day, 380 F. Supp. at 828. Moreover, in
the district court’s recitation of the facts, the defendant
officers placed the plaintiff’s decedent in two sets of
handcuffs once they saw that he was unresponsive, which
conflicts with the Seventh Circuit’s finding that the
defendant officers could not have connected the plaintiff’s
decedent’s distress with the handcuffs. Id. at 821; Day, 947
F.3d at 464. Ultimately, the Seventh Circuit failed to
consider the evidence in the light most favorable to the
plaintiff, and it held that the defendant officers were
entitled to qualified immunity. Id.
In Calloway v. Lokey, 948 F.3d 194 (4th Cir. 2020),
the plaintiff was visiting an inmate when she was strip
searched by two officers after she appeared to adjust her
clothing. Id. at 197-98. In the Fourth Circuit’s recitation of
the facts, the defendant officers were also aware that the
plaintiff had been acting nervous. Id. at 197. Moreover, the
defendant officers had received a tip that the inmate that

18

the plaintiff was visiting had been “moving,” a term for
transporting contraband. Id. When confronted about
whether she was carrying any illicit items, the plaintiff
denied possessing any contraband and asked to see the
video evidence at which point the defendant officers
demanded that the plaintiff consent to a strip search. Id. at
199. The plaintiff was instructed to remove all of her
clothing as well as her tampon, and the plaintiff complied
with each of the defendant officers’ orders. Id. The
defendant officers found no contraband or evidence of
wrongdoing by the plaintiff. Id. The plaintiff subsequently
filed suit against the defendant officers, alleging, in
relevant part, that the strip search violated her Fourth
Amendment rights. Id. at 200. The district court granted
summary judgment, and the plaintiff appealed, arguing
that the district court “improperly resolved disputed facts”
in favor of the defendant rather than the plaintiff. Id. at
201. The Fourth Circuit affirmed the district court, holding
that the defendant officer had the requisite reasonable
suspicion necessary to justify the strip search under the
Fourth Amendment. Id. at 205.
Judge James A. Wynn dissented, arguing that the
majority failed “to view the evidence in the light most
favorable to [the] non-moving party.” Id. Specifically,
Judge Wynn first criticized the majority for aggregating
the knowledge of all of the officers involved in the search
“without regard to what information was actually known
at the time by the decision-making officers.” Id. at 207. One
of the defendant officers had testified that he did not know
that the plaintiff was acting nervous, and therefore, this
information should not have been considered as part of the
totality of the circumstances. Id. Moreover, the tip that the
inmate was “moving” was, in fact, referred to by one of the

19

defendant officers as something he heard “through
passing.” Id. at 208. This testimony is less persuasive than
the framing by the majority opinion, which characterized
the information as “a more concrete tip.” Id. at 203, 208.
Furthermore, while the majority opinion agreed with the
district court’s assertion that the defendant officer, who
ordered the search, “had a history of successfully
identifying suspicious behavior that led to the interception
of contraband,” Judge Wynn identified that the defendant
officer testified that he had twice observed visitors
accessing contraband before, and the record contained no
total number of times the defendant officer had identified
suspicious behaviors where the visitor did not have
contraband. Id. at 208-09. Therefore, the majority opinion
simply accepted the characterization of the defendant
officer’s expertise. Id. at 209. Judge Wynn argued that
taken in the light most favorable to the plaintiff, the facts
supported that the defendant officers only knew that (1)
the plaintiff appeared to adjust her pants; and (2) one of
the defendant officers had heard that the inmate was
“moving.” Id. at 211. Therefore, “the officers in this matter
were not entitled to summary judgment on the basis that
no reasonable jury could find the search was not supported
by reasonable suspicion.” Id.
In Kong v. City of Burnsville, 960 F.3d 985 (8th Cir.
2020), the plaintiff’s decedent was sitting in a parked car
in a McDonald’s parking lot where he was found rocking
back and forth while slashing a knife through the air in
front of him. Id. at 989. The defendant officers pointed their
gums at the plaintiff’s decedent while shouting at him to
drop the knife. Id. The plaintiff’s decedent did not respond
or cease his movements, and the defendant officers broke
the front passenger window and tased the plaintiff’s

20

decedent. Id. at 990. The plaintiff’s decedent squealed in
pain and appeared to lunge towards the defendant officers,
so the defendant officers tased him again. Id. The plaintiff’s
decedent stood up and ran, knife in hand, when the
defendant officers fired 23 bullets, killing the plaintiff’s
decedent. Id. The plaintiff’s decedent brought suit alleging
excessive force. Id. The district court denied summary
judgment, and the Eighth Circuit reversed. Specifically,
the Eighth Circuit held that a reasonable officer would
have believed that the law permitted shooting the
plaintiff’s decedent under the circumstances. Id. at 995.
Judge Jane Louise Kelly authored a dissenting
opinion where she argued that the facts, taken in the light
most favorable to the plaintiff, could support a reasonable
jury in deciding that the defendant officers violated the
plaintiff’s decedent’s clearly established right. Id. at 997,
1000. Judge Kelly identified that a reasonable officer would
understand that the plaintiff’s decedent’s action in lunging
towards the defendant officers upon being tased was an
involuntary response to the electric current. Id. at 998.
Judge Kelly further noted that the plaintiff’s decedent was
running away from both the officers and any other cars in
the parking lot, despite the majority’s description of the
plaintiff’s decedent running “in the general direction of the
vehicle,” though the majority concedes that he was “not
running at it in particular.” Id. at 990, 998. Moreover,
Judge Kelly acknowledged a video interview in which none
of the defendant officers alleged that the plaintiff’s
decedent had committed any violent felony before they
decided to shoot. Id. at 998. This evidence, which is critical
to the excessive force analysis, was omitted from the
majority opinion. Id. Based upon the totality of the
circumstances, Judge Kelly agreed with the district court’s

21

holding that the use of deadly force was unreasonable
under the circumstances and thus excessive. Id. at 999.
C. THE INSTANT CASE IS THE APPROPRIATE VEHICLE
THROUGH WHICH TO ADDRESS THE WIDESPREAD
CONSPICUOUS FAILURE TO APPLY THE TOLAN V.
COTTON STANDARD TO MOTIONS FOR SUMMARY
JUDGMENT BASED UPON QUALIFIED IMMUNITY
Given the widespread conspicuous failure to apply
the proper legal rule with regard to summary judgment
based upon qualified immunity, the Court must address
this issue. Moreover, the instant case presents a
compelling opportunity to do so. First, two out of four
judges who viewed the evidence believed that a reasonable
jury could find that respondent Rivera violated minor
N.K.’s Fourth Amendment right to be free from excessive
use of force. (A32, A19). Second, the instant case involves
a minor. (A3, A22). There is therefore a particularly strong
interest in ensuring that the unarmed and compliant
fourteen-year-old boy shot by the police in this case can
seek compensation for injuries which will affect him for the
rest of his life. Third, the Sixth Circuit’s framing of the
evidence in this case clearly ignores the applicable
standard under Tolan. Specifically, as addressed by Judge
Moore in her dissenting opinion, “the majority repeatedly
accept[ed] Rivera’s framing of the evidence over N.K.’s.
More specifically, in its recitation of facts, the majority
state[d] that ‘[w]hile N.K. was [pulling the gun out of his
waistband and tossing it away], Rivera fired his weapon at
N.K.’” (A15). Moreover, the Sixth Circuit’s majority
opinion accepted respondent Rivera’s argument that he
had decided to shoot before N.K. had tossed away the toy
gun. (A15-A16). The jury should be permitted to assess the

22

validity of that argument, and a reasonable jury could
choose not to believe that respondent Rivera “decided” to
shoot minor N.K. before he had disposed of the BB gun and
instead believe the witnesses’ testimony. Specifically, a
reasonable jury could believe minor N.K.’s own testimony
that at the time that he was shot, he had already visibly
disposed of the BB gun and was putting his hands up;
minor S.C.’s testimony that minor N.K. put his hands up
halfway and then was shot by respondent Rivera; and
minor S.W.’s testimony that minor N.K. was shot after he
had already dropped the gun and moved his shoulder a
little bit. (A16). The Sixth Circuit clearly believed
respondent Rivera over minor N.K. in violation of the
standard reiterated in Tolan. Finally, the video evidence in
this case provides further support for Ms. Nelson’s position
that minor N.K. was unarmed and raising his empty hands
at the time he was shot by respondent Rivera. (A16).
Specifically, the video evidence shows minor N.K.’s open,
empty right palm. (A16). Ms. Nelson’s version of the facts
therefore does not conflict with the video evidence, but
rather, the video evidence supports Ms. Nelson’s position
that minor N.K. was unarmed and complying with
respondent Rivera’s orders at the time minor N.K. was
shot. (A16).

23

CONCLUSION
The Writ of Certiorari should be granted.
Respectfully submitted,
CHRISTOPHER J. TRAINOR
Counsel of Record
Christopher Trainor & Associates
9750 Highland Rd.
White Lake, MI 48386
(248) 886-8650

24

